May 2009
Report No. AUD-09-012


Material Loss Review of Security
Pacific Bank, Los Angeles, California




            AUDIT REPORT
                                         Report No. AUD-09-012                                                                            May 2009

                                         Material Loss Review of Security Pacific Bank,
                                         Los Angeles, California
Federal Deposit Insurance Corporation
                                         Audit Results
Why We Did The Audit
                                         SPB failed primarily due to bank management’s pursuit of a high-risk business strategy focused on rapid
As required by section 38(k) of the      asset growth concentrated in CRE/ADC loans, which were financed primarily with wholesale funding
Federal Deposit Insurance Act, the       sources, including volatile non-core deposits and borrowings. As the California residential real estate
Office of Inspector General (OIG)        market began to decline in 2007, the bank’s loan portfolio deteriorated quickly and impaired the financial
conducted a material loss review of      condition of the institution. Ultimately, as a result of substantial loan losses, the bank was unable to
the failure of Security Pacific Bank,    maintain adequate capital or satisfy liquidity requirements, leading to its failure. Specifically:
Los Angeles, California (SPB). On
November 7, 2008, the California         Management. SPB’s BOD did not ensure that bank management identified, measured, monitored, and
Department of Financial Institutions     controlled the risk of the institution’s activities or implemented timely corrective actions in response to
(DFI), closed SPB and named the          examiner recommendations related to diversification of the bank’s loan portfolio, inadequate monitoring
FDIC as receiver. On November 19,        of real estate lending, and liquidity management. Further, examiners criticized management’s market
2008, the FDIC notified the OIG          analysis and monitoring processes, especially considering that the institution did not take sufficient
that SPB’s assets at closing totaled     action to address the problems related to the residential real estate market in 2007.
$540.3 million, with a material loss
to the Deposit Insurance Fund (DIF)      Asset Quality. SPB’s ADC loans, as a percent of its loan portfolio, were significantly above peer group
estimated at $208.4 million. As of       averages from 2004 through 2008. Additionally, SPB’s CRE/ADC and commercial loans were primarily
December 31, 2008, the estimated         concentrated in one area of Southern California. SPB did not follow sound credit administration
loss to the DIF decreased to $175.5      practices, including those related to (1) loan risk ratings, (2) nonaccrual loans, and (3) monitoring of real
million.                                 estate lending and unsecured loans. As asset quality declined, SPB did not maintain a sufficient
                                         allowance for loan and lease losses, and significant losses reduced earnings and depleted capital.
The audit objectives were to
(1) determine the causes of the          Liquidity. SPB was dependent on higher-cost and more volatile wholesale funding sources, such as
financial institution’s failure and      Internet certificates of deposit, Federal Home Loan Bank advances, and the solicitation of high-interest-
resulting material loss to the DIF       rate deposits by in-house salaried employees (money desk deposits) to fund asset growth. Liquidity
and (2) evaluate the FDIC’s              levels declined because management did not adequately monitor and control liquidity ratios, implement
supervision of the institution,          an adequate contingency liquidity plan, and reduce its dependence on non-core deposits in a timely
including implementation of the          manner.
Prompt Corrective Action (PCA)
provisions of section 38. Our ability    Supervision. The FDIC and DFI conducted timely examinations of SPB from 1985 until its closing in
to evaluate supervisory efforts prior    2008. In 2006, the FDIC reported concerns about SPB’s rapid CRE/ADC loan growth through a heavy
to 2007 was limited because the          reliance on wholesale funding sources but did not make recommendations regarding the risks of the
retention of work papers beyond one      bank’s high CRE/ADC concentrations that ultimately led to SPB’s failure. By September 2007, the
examination is generally                 overall condition of the bank had deteriorated to unsatisfactory, and the bank’s component and composite
discouraged in accordance with           ratings were downgraded to 4. However, timely supervisory action was not taken commensurate with the
FDIC policies.                           risks that the CRE/ADC concentrations and other loan underwriting and credit administration
                                         weaknesses posed to the institution. In particular, the 2007 examination results were submitted to the
Background                               San Francisco Regional Office in November 2007, but enforcement action to address the bank’s
                                         significant weaknesses was not implemented until about 5 months later. Greater supervisory concern and
The FDIC has been the bank’s             more timely supervisory action were warranted in light of such weaknesses. In April 2008, the FDIC and
primary federal regulator since it       DFI jointly issued a Cease and Desist Order, which, among other things, addressed the need for more
was chartered in 1981. SPB’s loan        prudent diversification in the bank’s loan portfolio and implementation of a capital maintenance plan. A
portfolio primarily consisted of         joint FDIC/DFI examination began in August 2008, but the Report of Examination had not yet been
commercial real estate loans (CRE),      issued in final form when SPB was closed on November 7, 2008.
with a significant concentration in
land acquisition, development, and       The FDIC OIG plans to issue a series of summary reports on the material loss reviews it is conducting
construction loans (ADC).                and will make appropriate recommendations related to the failure of SPB and other FDIC-supervised
                                         banks at that time, including with regard to implementation of PCA provisions.
FDIC guidance issued to financial
institutions describes a risk            Management Response
management framework to
effectively identify, measure,           The Division of Supervision and Consumer Protection (DSC) provided a written response to the draft
monitor, and control CRE                 report, noting that SPB’s primary growth phase occurred between 2003 and 2005, when the Southern
concentration risk. That framework       California real estate market also was expanding rapidly, and the subsequent material decline in real
includes effective oversight by bank     estate values in SPB’s market area contributed to the severe deterioration in SPB’s asset quality,
management, including the board of       excessive operating losses, and severe erosion of capital. DSC agreed with the OIG’s assessment that
directors (BOD) and senior               SPB failed due to management’s pursuit of a high-risk business strategy focused on rapid asset growth
executives, and sound loan               concentrated in CRE loans, including ADC loans, financed primarily with wholesale funding. Further,
underwriting, credit administration,     DSC acknowledged that implementation of the formal enforcement action was delayed. DSC has since
and portfolio management practices.      adopted strategies aimed at improving the timeliness of enforcement actions in problem bank situations.

To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                               Page

BACKGROUND                                                               2

RESULTS IN BRIEF                                                         4

MANAGEMENT                                                               6
  Examiner Concerns and Recommendations Regarding Management             6
  Risk Management                                                        8
  Regulatory Supervision Related to Management                           8

ASSET QUALITY                                                           10
  Examiner Concerns and Recommendations Regarding Asset Quality         11
  Concentrations in CRE and ADC Loans                                   11
  Allowance for Loan and Lease Losses                                   13
  Regulatory Supervision Related to Asset Quality                       14
     Concentrations of Credit                                           16

LIQUIDITY                                                               16
  Examiner Concerns and Recommendations Regarding Liquidity             18
    Lack of an Adequate CLP                                             19
    Brokered Deposit Restrictions                                       20
  Regulatory Supervision Related to Liquidity                           21

IMPLEMENTATION OF PCA                                                   22


CORPORATION COMMENTS                                                    23


APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                                 24
  2. GLOSSARY OF TERMS                                                  27
  3. CORPORATION COMMENTS                                               28
  4. ACRONYMS IN THE REPORT                                             29


TABLES
  1. Financial Condition of SPB                                          4
  2. Examiner Comments Regarding SPB’s BOD and Management                7
      Performance
  3. SPB’s Asset Classifications and ALLL                               10
  4. Examiner Comments and Recommendations Regarding SPB’s Asset        11
      Quality
  5. SPB Net Income (Loss) and ALLL                                     14
  6. Examiner Comments and Recommendations Regarding SPB’s Liquidity    19
Contents                                                             Page

FIGURES

  1. SPB’s Key CAMELS Ratings                                          3
  2. ADC Loans as a Percentage of Average Loans - Compared to Peer    12
  3. ADC Loans as a Percentage of Total Capital - Compared to Peer    14
  4. CRE Loans as a Percentage of Total Capital - Compared to Peer    15
  5. Net Non-Core Funding Dependence Ratio - Compared to Peer         17
Federal Deposit Insurance Corporation                                                                         Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                          Office of Inspector General


DATE:                                     May 18, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection



FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of Security Pacific Bank,
                                          Los Angeles, California (Report No. AUD-09-012)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of Security Pacific Bank
(SPB). On November 7, 2008, the California Department of Financial Institutions (DFI) closed
the institution and named the FDIC as receiver. On November 19, 2008, the FDIC notified the
OIG that SPB’s total assets at closing were $540.3 million with a loss to the Deposit Insurance
Fund (DIF) estimated at $208.4 million. As of December 31, 2008, the estimated loss had
decreased to $175.5 million.

When the DIF incurs a material loss with respect to an insured depository institution for which
the FDIC is appointed receiver, the FDI Act states that the Inspector General of the appropriate
federal banking agency shall make a written report to that agency which reviews the agency’s
supervision of the institution, including the agency’s implementation of FDI Act section 38,
Prompt Corrective Action (PCA); ascertains why the institution’s problems resulted in a material
loss to the DIF; and makes recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s failure and
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of the institution,
including implementation of the PCA provisions of section 38. Appendix 1 contains details on
our objectives, scope, and methodology, and Appendix 2 contains a glossary of terms.
Acronyms used in the report are listed in Appendix 4.




1
  As defined by section 38 of the FDI Act, a loss is material if it exceeds the greater of $25 million or 2 percent of an
institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions, protects
consumers’ rights, and promotes community investment initiatives by the institutions. The FDIC’s Division of
Supervision and Consumer Protection (DSC) (1) performs examinations of FDIC-supervised institutions to assess
their overall financial condition; management policies and practices, including internal control systems; and
compliance with applicable laws and regulations; and (2) issues related guidance to institutions and examiners.
    This report presents the FDIC OIG’s analysis of SPB’s failure and the FDIC’s efforts to ensure
    SPB’s management operated the bank in a safe and sound manner. The FDIC OIG plans to issue
    a series of summary reports on our observations on the major causes, trends, and common
    characteristics of financial institution failures resulting in a material loss to the DIF.
    Recommendations in the summary reports will address the FDIC’s supervision of the
    institutions, including implementation of the PCA provisions of section 38.


BACKGROUND

    SPB, initially called Golden Pacific Bank, was insured by the FDIC and established on
    December 7, 1981. The institution was renamed Network Bank USA on August 18, 1999 and
    became SPB on November 4, 2004. SPB, which was headquartered in Los Angeles, California:

        • had two branches in Los Angeles; one branch in Ontario, California; and one branch in
          Orange County, California;

        • provided traditional banking activities within its marketplace and focused primarily on
          commercial real estate (CRE), commercial and industrial, construction, and other lending;
          and

        • specialized in residential acquisition, development, and construction (ADC) loans, many of
          which were significantly concentrated in the Inland Empire and Greater Los Angeles areas
          of Southern California.

    SPB was primarily owned by Security Pacific Bancorp, a bank holding company. SPB’s main
    market area was Southern California with nearly 93 percent of the bank’s deposits concentrated
    in Los Angeles County. The Chairman of the Board (Chairman) personally controlled 60
    percent of the holding company’s stock, and his family collectively owned or controlled 98
    percent of the stock. Additionally, the holding company owned Security Pacific Credit
    Corporation (SPCC), a finance company that was incorporated in February 2002. SPCC’s loan
    clientele consisted of small- to middle-market businesses and included some affiliated companies
    controlled by the Chairman.

    DSC’s Los Angeles West Field Office and DFI performed regular safety and soundness
    examinations of SPB, conducting a total of five examinations from August 2004 through August
    2008. Each examination was conducted jointly by the FDIC and DFI, with the exception of the
    2006 examination which was an FDIC examination conducted under the FDIC’s Maximum
    Efficiency, Risk Focused, Institution Targeted (MERIT) Guidelines.3




    3
     The FDIC followed MERIT guidelines, dated January 27, 2004, in performing examinations for well capitalized
    banks with a 1 or 2 composite rating for the two most recent examinations and that met other criteria in the
    guidelines.


                                                            2
In 2003, SPB’s management decided to concentrate its loan portfolio in real estate construction
to obtain higher yields and offset its high cost of funds. At the September 2007 examination,
SPB’s CAMELS composite rating was downgraded to 4,4 indicating unsafe and unsound
practices or conditions and a distinct possibility of failure if such conditions and practices were
not satisfactorily addressed and resolved. In 2008, SPB’s composite rating was downgraded to a
5, indicating extremely unsafe and unsound practices or conditions; critically deficient
performance, often with inadequate risk management practices; and great supervisory concern.
Institutions in this category pose a significant risk to the DIF and have a high probability of
failure.

Further, with respect to selected component ratings, as indicated in Figure 1 below, SPB’s
liquidity rating was downgraded to 3 at the July 2006 examination. At the following September
2007 examination, SPB’s management, asset quality, and liquidity ratings were downgraded to 4.
As a result of the August 2008 joint examination, the FDIC and DFI issued a problem bank
memorandum in October 2008 and downgraded SPB’s management, asset quality, and liquidity
ratings to 5.



                                        Figure 1: SPB's Key CAMELS Ratings


                     5
                     1


                     2
                     4
    CAMELS Ratings




                                                                                                            Aug-04
                     3
                     3
                                                                                                            June-05

                                                                                                            July-06
                     2
                     4
                                                                                                            Sept-07

                                                                                                            Aug-08
                     5
                     1


                     0
                         Composite         Management          Asset Quality         Liquidity


             Source: OIG review of Reports of Examination (ROE) and the October 2008 Problem Bank Memorandum.

In January 2008, based on off-site monitoring of SPB’s financial condition, the FDIC considered
SPB to be in “troubled condition” and identified the institution as a “problem bank.” To address
examination concerns, inadequate risk management controls, and other safety and soundness

4
 Financial institution regulators and examiners use the Uniform Financial Institutions Rating System (UFIRS) to
evaluate a bank’s performance in six components represented by the CAMELS acronym: Capital adequacy, Asset
quality, Management practices, Earnings performance, Liquidity position, and Sensitivity to market risk. Each
component, and an overall composite score, is assigned a rating of 1 through 5, with 1 having the least regulatory
concern and 5 having the greatest concern.


                                                              3
     issues, the FDIC and DFI subsequently issued a Cease and Desist Order (C&D) effective
     April 22, 2008 (discussed later in the report).

     Details on SPB’s financial condition, as of September 2008, and for the 5 preceding calendar
     years follow in Table 1.

    Table 1: Financial Condition of SPB
                                           30-Sept-08   31-Dec-07       31-Dec-06   31-Dec-05   31-Dec-04   31-Dec-03
    Total Assets ($000s)                   $527,959     $594,725        $544,951    $536,335    $307,005    $214,823
    Total Deposits ($000s)                 $456,472     $501,563        $441,604    $436,556    $272,358    $181,558
    Total Loans ($000s)                    $467,588     $525,294        $489,459    $444,505    $257,097    $165,715
    Net Loan Growth Rate                   (14.88)%      6.46%           9.67%       72.90%      55.12%     115.35%
    Net Income (Loss) ($000s)               (73,585)     (1,236)         17,720      10,360       4,986       1,793
    Loan Mix (% of Avg. Gross Loans):
    All Loans Secured by Real Estate        65.24%       68.34%          84.66%      92.75%      92.42%      87.68%
     Construction and Development (ADC)     31.64%       39.13%          39.38%      34.90%      33.12%      11.32%
     CRE - Nonfarm/nonresidential           26.89%       24.93%          36.07%      41.18%      42.10%      54.04%
     Multifamily Residential Real Estate     6.7%        4.28%           8.87%       16.09%      16.71%      20.82%
     1-4 Family Residential – excluding      0.0%         0.0%           0.35%       0.59%       0.49%       1.50%
     Home Equity Lines of Credit
     Home Equity Loans                       0.0%         0.0%            0.0%        0.0%        0.0%        0.0%
    Commercial and Industrial Loans         34.74%       30.92%          14.71%      7.20%       7.45%       11.85%
    Adverse Classifications Ratio            199%         98%              0%          0%          0%          0%

     Source: Uniform Bank Performance Reports (UBPR) and ROEs for SPB.


RESULTS IN BRIEF

     SPB failed primarily due to bank management’s pursuit of a high-risk business strategy focused
     on rapid asset growth concentrated in CRE/ADC loans, financed primarily with wholesale
     funding sources, including volatile non-core deposits and borrowings. As the California
     residential real estate market began to decline in 2007, the bank’s loan portfolio deteriorated
     quickly and impaired the financial condition of the institution. Ultimately, as a result of
     substantial loan losses, the bank was unable to maintain adequate capital or satisfy liquidity
     requirements, leading to its failure. Specifically:

     Management. SPB’s BOD did not ensure that bank management identified, measured,
     monitored, and controlled the risk of the institution’s activities or implemented timely corrective
     actions in response to examiner recommendations. In particular, the BOD did not ensure that
     proper controls were in place, including those related to concentrations, loan underwriting, and
     credit administration, to properly manage the rapid increase in the loan portfolio. Additionally,
     SPB did not adequately address recommendations in FDIC and DFI ROEs related to
     diversification of the bank’s loan portfolio, inadequate monitoring of real estate lending, and
     liquidity management. Further, examiners criticized management’s market analysis and
     monitoring processes, especially considering that the institution did not take sufficient action to
     address the problems related to the residential real estate market in 2007.



                                                                    4
Asset Quality. SPB’s ADC loans, as a percent of its loan portfolio, were significantly above
peer group averages from 2004 through 2008. Additionally, these and other CRE and
commercial loans were primarily concentrated in one area of Southern California. SPB had
weak loan portfolio management and underwriting controls and did not follow sound credit
administration practices, including those related to loan risk ratings and nonaccrual loans and
monitoring of real estate lending and unsecured loans. As asset quality declined, SPB did not
maintain a sufficient allowance for loan and lease losses (ALLL), and significant losses reduced
earnings and depleted capital.

Liquidity. SPB became dependent on higher-cost and more volatile wholesale funding sources,
such as Internet certificates of deposit (CD), Federal Home Loan Bank (FHLB) advances, and
money desk deposits to fund asset growth. Liquidity levels declined because management did
not adequately monitor and control liquidity ratios or implement an adequate contingency
liquidity plan. Specifically, management failed to reduce its dependence on non-core deposits in
a timely manner.

Supervision. The FDIC and DFI conducted regularly scheduled examinations of SPB from
1985 until its closing in 2008. In 2006, the FDIC reported concerns about SPB’s rapid
CRE/ADC loan growth through a heavy reliance on wholesale funding sources. By September
2007, the overall condition of the bank had deteriorated to unsatisfactory, and the bank’s
component and composite ratings were downgraded to 4. At that time, the FDIC did not issue a
PCA Directive to SPB because the bank was still considered well capitalized. However, in April
2008, the FDIC and DFI jointly issued a C&D which, among other things, addressed the need for
more prudent diversification in the bank’s loan portfolio and implementation of a capital
maintenance plan. A joint FDIC/DFI examination began in August 2008, but the ROE had not
yet been issued in final form when SPB was closed on November 7, 2008.

The 2006 ROE downgraded liquidity due to the level of non-core deposits but did not make
recommendations regarding the risks of the bank’s high CRE/ADC concentrations that
ultimately led to SPB’s failure. The 2006 ROE highlighted SPB’s rapid asset growth and high-
risk CRE/ADC concentrations, but the asset quality rating was not downgraded due to the bank’s
proactive monitoring of its CRE/ADC portfolio and lack of non-performing loans. Once the
bank’s financial condition had deteriorated in 2007, timely supervisory action was not taken
commensurate with the risks these concentrations and loan underwriting and credit
administration weaknesses posed to the institution. In particular, the 2007 examination results
were submitted to DSC’s San Francisco Regional Office (SFRO) in November 2007; however,
enforcement action to address the bank’s significant weaknesses was not implemented until
about 5 months later. Greater supervisory concern and more timely supervisory action were
warranted in light of such weaknesses.




                                                 5
     MANAGEMENT

     SPB’s Board of Directors (BOD) did not ensure that bank management identified, measured,
     monitored, and controlled the risk of the institution’s activities or implemented timely corrective
     actions in response to examiner recommendations. Examinations from 2004 to 2006 resulted in
     a 2 (satisfactory) rating for SPB’s management. The 2007 examination significantly
     downgraded SPB’s management to a 4 (unsatisfactory) rating, indicating deficient BOD and
     management performance, inadequate risk management practices, and excessive risk exposure.
     SPB’s concentration in real estate construction resulted in significant losses and risks to the bank
     that depleted earnings and negatively impacted capital. The 2007 ROE made a number of
     recommendations to improve loan quality and to address the increased risks inherent in the loan
     portfolio. Although bank management started decreasing the bank’s concentrations in
     construction lending at the end of 2006, the loan portfolio had significantly deteriorated by the
     September 2007 examination, and by the 2008 examination, the bank’s problems resulted in a 5
     rating, requiring immediate action by the BOD and management to preserve the safety and
     soundness of the institution, and immediate financial assistance was needed to recapitalize the
     institution in order for the institution to survive. However, SPB management was unable to raise
     additional capital to meet liquidity requirements, resulting in the bank’s failure prior to issuance
     of the 2008 ROE.


Examiner Concerns and Recommendations Regarding Management

     Examiner concerns with the SPB’s high concentration in ADC lending were noted in each ROE
     for the 2004 through 2008 examinations. Until the September 2007 ROE, the ROEs indicated
     that although the bank had a significant CRE concentration, BOD oversight and management
     monitoring of the concentrations were adequate. Beginning with the July 2006 examination,
     examiners also expressed concern regarding the use of a money desk to fund rapid growth,
     particularly growth in high-yield ADC loans.

     SPB’s annual net loan growth rate was 115 percent, 55 percent, and 73 percent in 2003, 2004,
     and 2005, respectively. During that period, however, SPB had no adversely classified assets.
     SPB’s BOD and management began an effort to diversify the loan portfolio by emphasizing
     commercial and industrial loan growth in 2006 and 2007. As the residential real estate market
     began to decline rapidly in 2007, SPB’s concentration in ADC loans quickly deteriorated and
     impaired the financial condition of the institution. Although examiners expressed concerns
     regarding SPB’s loan concentrations, examiners did not report credit administration practices as
     weak until the 2007 ROE. A summary of examiner comments and recommendations regarding
     SPB’s management follows in Table 2.




                                                       6
Table 2: Examiner Comments Regarding SPB’s BOD and Management Performance
                         Examiner Comments                                         Examination Dates
                                                                           Aug    June July     Sept   Aug
                                                                           2004   2005 2006     2007   2008
Overall conclusion on BOD and management performance
  • Satisfactory                                                            9      9      9
  • Ineffective supervision of bank operations                                                   9      9
Compliance with laws and regulations
  • Apparent violations related to affiliate, Bank Secrecy Act, or other           9                    9
    activities
  • Apparent violations related to loan underwriting and/or credit                        9      9      9
    administration
Bank organization
  • One or more key management positions inadequately staffed                      9             9
  • Inadequate management succession plan                                                        9      9
  • Apparent inadequate staffing of accounting and lending functions                             9
Growth of operations
  • Loan growth was aggressive, significant, or faster than anticipated     9      9      9
  • Loan growth supported by wholesale liquidity sources                    9             9
  • Loan portfolio was focused on CRE/ADC high-risk lending                 9      9      9      9      9
Policy and procedures
  • Interest rate risk program is not independently reviewed                                     9      9
  • Report of Condition and Income (Call Report) was inaccurate                    9             9      9
  • External loan review program needs improvement                                               9      9
  • Loan portfolio administration procedures require improvement                          9      9      9
    related to watch list criteria and portfolio stress testing
Risk management
  • Credit administration and risk identification practices were weak                            9      9
  • Internal audit practices and/or related risk assessment process need    9                    9      9
    improvement
  • Inadequate attention to, and implementation of, examiner                                            9
    recommendations
  • Inadequate strategic plan                                                                    9
  • BOD reports for interest rate risk need improvement                                          9      9
  • BOD reports for liquidity are inadequate and inaccurate                                      9
Examiner recommendations
  • Review and/or improve policies and procedures to ensure                 9      9      9      9      9
    compliance with laws and regulations
  • Perform a review of staffing levels                                                          9
  • Improve credit administration procedures                                              9      9      9
  • Develop written management succession plan                                                   9
  • Obtain an independent review of the interest rate risk program                               9      9
  • File an amended Call Report                                                    9             9      9
  • Improve the external loan review program                                                     9      9
  • Improve audit practices and/or related risk management activities       9                    9      9
  • Develop and accept a revised strategic plan                                                  9
  • Establish reasonable policy guidelines and limits for interest rate                          9
    risk
Source: FDIC and DFI ROEs for SPB.




                                                           7
Risk Management

      SPB’s management did not ensure that adequate risk management controls were implemented
      and followed and did not act in a timely manner to address the high-risk lending practices
      identified by examiners related to the bank’s highly concentrated ADC lending. SPB
      management fostered a culture of high-risk tolerance and rapid growth financed with wholesale
      funding which affected the overall safety and soundness of the institution.

      Financial institutions with high CRE loan concentrations require strong risk management
      practices. Beginning in 2003, SPB began rapidly acquiring and originating CRE/ADC loans
      concentrated in the Inland Empire and Greater Los Angeles areas of Southern California.
      However, as noted below, SPB did not follow sound risk management practices, including those
      related to monitoring, diversification, and portfolio stress testing:

             •    the 2005 ROE advised management that to be more effective in monitoring
                  concentrations, the bank should further stratify the portfolio by geographic area; and

             •    the 2006 ROE noted that there were no real estate construction loans on SPB’s
                  watch list and that the procedure for portfolio stress testing appeared inaccurate and
                  misleading.

      By the June 2007 examination, SPB had approximately $67.7 million in adversely classified
      assets due to the decline in the real estate market in the bank’s concentrated lending area. In
      September 2008, examiners determined that management and the BOD had not demonstrated the
      ability to correct problems and implement appropriate risk management practices and that
      problems and significant risks were inadequately identified, measured, monitored, or controlled,
      threatening the continued viability of the institution. We consider inadequate risk management
      controls and the lack of management action to address control deficiencies to be significant
      concerns, which we will address in our summary reports covering multiple bank failures.


Regulatory Supervision Related to Management

      According to DSC’s Risk Management Manual of Examination Policies (Examination Manual),
      the quality of management is probably the single most important element in the successful
      operation of a bank. The BOD is responsible for formulating sound policies and objectives for
      the bank, effective supervision of its affairs, and promotion of its welfare, while the primary
      responsibility of senior management is implementing the BOD’s policies and objectives in the
      bank’s day-to-day operations. Also according to the manual, the capability and performance of
      management and the BOD is rated based upon, but not limited to, an assessment of compliance
      with laws and regulations.

      Prior to the 2007 examination report, SPB’s management had been favorably rated since 2004.
      The 2004 through 2006 ROEs included examiner concerns related to the high level of CRE
      concentrations; however, management was found to be proactive in monitoring the construction
      and real estate markets, and other credit administration practices were found to be generally


                                                       8
satisfactory. In addition to the concerns expressed about the use of volatile funding sources and
high CRE concentrations, the 2006 ROE brought three other issues to management’s attention.
First, the ROE criticized SPB’s loan-to-value calculation in underwriting one loan. Examiners
recommended that management review the loan-to-value calculations for SPB’s entire portfolio
to determine if there were other exceptions, and if so, report them to the BOD; management
agreed to do such a review. Second, the ROE noted that no real estate construction loans were
on the bank’s internal watch list and identified one loan relationship that deserved management’s
attention because of a number of concerns related to the loan. Third, the ROE advised
management that the procedure for portfolio stress testing related to residential real estate
appeared to be inaccurate and misleading. Because of the concern over the high CRE/ADC
concentrations, FDIC examiners told us that they heightened their off-site monitoring of SPB
after the 2006 examination. During its off-site monitoring, DSC observed a decline in SPB’s
financial condition in early 2007; therefore, DSC participated in the DFI examination scheduled
for September 2007.

The September 2007 FDIC/DFI joint examination of SPB showed that the ADC loan portfolio
was concentrated in the Inland Empire and Greater Los Angeles areas of Southern California,
which had been negatively impacted by a weak housing market and rising foreclosure levels.
Adversely classified assets increased to 93 percent of SPB’s capital and reserves. The examiners
downgraded each of SPB’s component ratings and the risk management composite rating to 4.
In addition, the FDIC and DFI jointly issued a C&D on April 22, 2008, requiring the bank,
among other things, to reduce adversely classified assets and delinquent loans, implement more
effective lending and collection policies, and develop a strategic plan. Most notably, the C&D
contained a provision that addressed the need for more prudent diversification in the bank’s loan
portfolio.

A joint FDIC/DFI examination commenced on August 18, 2008; however, the bank was closed
prior to issuance of the ROE. During this examination, examiners found that the performance of
SPB’s BOD and management was critically deficient and that risk management practices were
unacceptable. Problems and significant risks were inadequately identified, measured, monitored,
and controlled, and management had not made progress in complying with the C&D.
Consequently, the examiners concluded that the bank’s composite and all component ratings
should be downgraded to 5 (critically deficient).

In examinations prior to 2007, examiners expressed concern regarding SPB’s adoption of higher-
risk lending policies, loan portfolio administration weaknesses, and high non-core funding but
did not make recommendations for management to reduce its high level of CRE/ADC
concentrations or dependence on volatile funding sources to fund SPB’s rapid growth in
CRE/ADC lending. Greater supervisory concern was needed prior to the decline in the Southern
California real estate market to encourage SPB to diversify its loan portfolio in order to reduce
the effect the significant market decline had on SPB’s asset quality. Once the economic
downturn affected SPB’s financial condition, examiners significantly downgraded the institution
at the September 2007 examination. The exit meeting with SPB senior management was held on
October 29, 2007, and the examination report was submitted to the SFRO on November 14,
2007; however, FDIC and DFI officials did not meet with SPB’s BOD until January 23, 2008 to
present the ROE. Furthermore, the FDIC and DFI did not issue the C&D until April 22, 2008.


                                                 9
    SFRO officials explained that this delay occurred because of scheduling conflicts in arranging
    the BOD meeting between FDIC, DFI, and SPB management. Nevertheless, SFRO officials
    were communicating with SPB management on a consistent basis during that period to work on
    the elements of a corrective action plan based on the 2007 examination. SFRO officials further
    stated that due to their concern about the timeliness of enforcement actions, the SFRO had
    established an operational goal for 2009 that enforcement actions would be presented to the BOD
    within 30 days of examination completion.


ASSET QUALITY

    SPB’s asset quality received a 2 (satisfactory) rating from the 2004 through 2006 examinations.
    The 2007 examination downgraded asset quality to 4, indicating that the bank’s level of risk and
    problem assets were significant and inadequately controlled, subjecting the bank to potential
    losses that threatened the viability of the institution. At the August 2008 examination, examiners
    gave asset quality a 5 rating, indicating that SPB’s asset quality was critically deficient and
    presented an imminent threat to the institution’s viability.

    Corresponding increases in SPB’s adversely classified assets and ALLL were also significant
    (see Table 3). In particular, SPB’s asset quality deteriorated as asset classifications significantly
    increased from $11,000 in 2004 to over $132.5 million (about 27 percent of the total loan
    portfolio) as of August 31, 2008. At the August 2004 examination, the adversely classified items
    were 0.04 percent of Tier 1 Capital plus the ALLL. By the August 2008 examination, this
    amount rose to 198.72 percent of Tier 1 Capital plus the ALLL.

    Table 3: SPB’s Asset Classifications and ALLL
                                                        Asset Quality
                                                    (Dollars in Thousands)
                                 Asset Classifications                             Analysis of ALLL

                                                            Total                           Increase in
                                                            Adversely    ALLL               ALLL
    Examination                                             Classified   Computed by        Required by
    Date          Substandard   Doubtful      Loss          Items        SPB                Examiners

    Aug 04        $0            $0            $11           $11          $2,367             $0
    June 05       $0            $0            $0            $0           $3,224             $0
    July 06       $0            $0            $0            $0           $4,928             $0
    Sept 07       $48,660       $17,256       $1,829        $67,745      $6,670             $13,409
    Aug 08        $113,865      $0            $18,640       $132,505     $29,019            $23,325
    Source: FDIC and DFI ROEs for SPB.




                                                            10
Examiner Concerns and Recommendations Regarding Asset Quality

      Examiner concerns regarding SPB’s asset quality related to its concentration in high-risk
      CRE/ADC loans (see Table 4). As stated earlier in this report, a significant portion of the
      CRE/ADC loan portfolio was concentrated in Southern California, which had a weak housing
      market and rising foreclosure levels. Examiner concerns and recommendations in the 2007
      examination addressed credit monitoring, ongoing market analysis, the ALLL methodology, and
      internal risk rating processes. A summary of such comments and recommendations regarding
      SPB’s asset quality follows in Table 4.

      Table 4: Examiner Comments and Recommendations Regarding SPB’s Asset Quality
      Examiner Comments                                                            Examination Dates
                                                                          Aug    June    July    Sept   Aug
                                                                          2004   2005    2006   2007    2008
      Overall conclusion on asset quality
          •   Satisfactory                                                 9      9       9
          •   Less than satisfactory                                                              9      9
      CRE and ADC loan concentrations
          •   Concentration developing or already developed                9      9       9       9      9
          •   Management is adequately monitoring concentrations           9      9       9
          •   Monitoring of concentrations, including ongoing market                              9      9
              analysis, is inadequate
          •   Risk and/or impact of a declining economic environment       9      9       9       9      9
              noted
      Adverse classifications
          •   Noticeable loan quality deterioration/increase in adverse                           9      9
              classifications
      Assessment of asset management practices
          •   ALLL not adequately funded                                                          9      9
          •   ALLL methodology needs improvement                                  9               9
          •   Credit administration procedures need improvement                   9       9       9      9
          •   Loan underwriting weaknesses noted                                          9       9      9
          •   Internal loan risk rating needs improvement                                 9       9      9
      Examiner recommendations
          •   Monitor risk in the CRE and ADC loan concentrations,                9               9      9
              including stratification by geographic market
          •   Adequately fund the ALLL                                                            9      9
          •   Improve the ALLL methodology                                        9               9
          •   Improve loan underwriting and/or credit administration              9       9       9      9
              procedures
          •   Improve the internal loan risk rating system                                9       9      9
      Source: FDIC and DFI ROEs for SPB.



Concentrations in CRE and ADC Loans

      Beginning in 2003, SPB’s BOD made a strategic decision to pursue aggressive loan growth
      focused primarily on residential ADC loans. For 2003, 2004, and 2005, SPB reported loan
      growth of 115 percent, 55 percent, and 73 percent, respectively. ADC loans reached 303 percent
      of total capital at year end 2005. Figure 2, which follows, shows that by year-end 2004, SPB’s



                                                                11
ADC loan portfolio, as a percentage of average loans, was significantly above the bank’s peer
group average.


                   Figure 2: ADC Loans as a Percentage of Average Loans-
                                    Compared to Peer

            45%                                               39.38%       39.13%
            40%
                               33.12%         34.90%                                     31.64%
            35%
            30%
    Ratio




            25%                                                                                            SPB
            20%                                                                  16.31%
                                                    12.72%         14.96%                      15.69%      Peer
                  11.32%               10.44%
            15%
                        9.16%
            10%
             5%
             0%
                   Dec-03       Dec-04          Dec-05        Dec-06        Dec-07        Sept-08
              Source: UBPRs for SPB.             Period End Date


In late 2006, SPB’s asset quality began to decline as its loan portfolio, which was highly
concentrated in ADC loans, began to deteriorate. SPB then made efforts to diversify the loan
portfolio in 2006 and 2007. However, the decline in the California real estate market was
worsening, and the bank’s ADC loan portfolio rapidly deteriorated as reflected by the increasing
level of the ALLL.

Interagency guidance on CRE lending entitled, Guidance on Concentrations in Commercial Real
Estate Lending, Sound Risk Management Practices, issued December 12, 2006, acknowledges
that a concentration in CRE loans, coupled with weak loan underwriting and depressed CRE
markets, had contributed to significant loan losses.5

Examiners did not express concern about SPB’s loan underwriting practices until the 2006
examination but had expressed concern regarding aggressive growth and high concentrations in
CRE lending since the 2004 ROE. SPB did not follow sound risk management practices to
properly risk rate the loan portfolio in a timely manner. Once asset quality began to decline,
SPB’s ability to adequately monitor its declining loan portfolio was impaired due to the rapid
deterioration of the real estate market. The 2007 examination found that several loans had well-
defined weaknesses yet were internally rated as “pass.” Further, examiners considered the
external loan review conducted twice a year at the bank as only marginally adequate. Examiners
recommended several actions to mitigate the bank’s CRE risk, but bank management failed to

5
  The FDIC also issued Financial Institution Letter (FIL) 22-2008 on March 17, 2008, entitled, Managing
Commercial Real Estate Concentrations In a Challenging Environment, which re-emphasized the importance of
strong capital and ALLL and loan risk management practices for state nonmember institutions with significant CRE
and construction and development loan concentrations.


                                                         12
     implement actions to adequately address the recommendations, and asset quality continued to
     decline. As shown previously in Table 3, examiners identified an increasing level of adverse
     classifications at the September 2007 and August 2008 examinations. During the 2008
     examination, examiners determined that SPB had failed to take action to implement adequate
     monitoring and a control infrastructure regarding CRE concentrations. As asset quality declined
     and losses were recognized, SPB’s liquidity position became critical, and earnings and capital
     were eroded. We consider loan concentrations without adequate risk management controls to be
     a significant concern, which we will address in our summary reports covering multiple bank
     failures.


Allowance for Loan and Lease Losses

     In both the 2005 and 2007 examinations, examiners noted problems with the ALLL
     methodology. For example, the 2005 examination stated that the methodology was overly
     complex and recommended that it be simplified. The 2006 examination found that the ALLL
     methodology had been revised and was satisfactory. In 2007, examiners reported that the ALLL
     methodology was unacceptable because management used inaccurate information in its June 30,
     2007 analysis and noted that the bank did not comply with interagency policy, in part, because
     the process needed to be based on a comprehensive, well-documented analysis of the portfolio.
     According to the Interagency Policy Statement on the Allowance for Loan and Lease Losses
     (FIL-105-2006), dated December 13, 2006, each institution must analyze the collectibility of its
     loans and maintain an ALLL at a level that is appropriate and determined to be in accordance
     with Generally Accepted Accounting Principles (GAAP).6 An appropriate ALLL covers
     estimated loan losses on individually evaluated loans that are determined to be impaired as well
     as estimated loan losses inherent in the remainder of the loan and lease portfolio.

     The 2007 ROE reported that SPB’s ALLL was deficient by approximately $13 million. Further,
     during the 2008 examination, examiners determined that the ALLL was underfunded by
     $23 million, primarily due to significant downgrades in credit quality during the 2008
     examination, and that there were deficiencies in the bank’s calculation of the ALLL.

     As SPB’s assets deteriorated and the need to substantially increase the ALLL became apparent,
     earnings were significantly impacted (see Table 5, which follows). SPB’s earnings were
     overstated based on the ALLL being underfunded. The need to increase the ALLL ultimately led
     to the erosion of earnings.




     6
      The FIL reiterates key concepts and requirements, pertaining to the ALLL, included in GAAP and existing
     supervisory guidance. In addition, the policy describes the nature and purpose of the ALLL; the responsibilities of
     BODs, management, and examiners; factors to be considered in the estimation of the ALLL; and the objectives and
     elements of an effective loan review system, including a sound loan grading system.


                                                               13
      Table 5: SPB Net Income (Loss) and ALLL (Dollars in Thousands)
                                      Dec           Dec           Dec          Dec         Sept
                                      2004         2005          2006          2007        2008
      Net Income                     $4,986       $10,360       $17,720      $(1,236)    $(73,585)
      ALLL                           $2,476        $4,254         $6,644     $11,296      $21,492
      Source: UBPRs for SPB.



Regulatory Supervision Related to Asset Quality

      According to the December 2006 interagency guidance, CRE lending, in general, and
      construction lending, in particular, may require a greater level of supervisory oversight.
      Specifically, the guidance states that an institution may be identified for further supervisory
      analysis of the level and nature of risk if it has experienced rapid growth in CRE lending, has
      notable exposure to a specific type of CRE, or is approaching or exceeds the following
      supervisory criteria:

                 • total reported loans for construction, land development, and other land represent 100
                    percent or more of the institution’s total capital; or

                 • total CRE loans represent 300 percent or more of the institution’s total capital, and the
                    outstanding balance of the institution’s CRE loan portfolio has increased by 50 percent
                    or more during the prior 36 months.

      As noted in Figures 3 and 4, which follow, from 2003 to 2008, SPB’s CRE and ADC loans, as a
      percentage of total capital, far exceeded the capital criteria thresholds for additional supervisory
      oversight.


                           Figure 3: ADC Loans as a Percentage of Total Capital -
                                           Compared to Peer
                 500%                                                     473.25%
                 450%
                 400%
                 350%
                                           302.98%                274.79%
                 300%                                  266.38%
         Ratio




                                 240.96%                                                                SPB
                 250%
                 200%                                                                                   Peer
                      141.70%                               117.39% 123.60%
                 150%                                                          115.07%
                            69.12%    80.62%     103.53%
                 100%
                  50%
                   0%
                        Dec-03    Dec-04     Dec-05     Dec-06     Dec-07  Sept-08

                                                     Period End Date

                     Source: UPBRs for SPB.



                                                             14
                    Figure 4: CRE Loans as a Percentage of Total Capital -
                                     Compared to Peer
           1400%                                                                 1328.67%

           1200%
           1000%
                                         711.57%
                              669.17%
           800%                                                                                  SPB
   Ratio




                   598.85%                            512.21%       429.08%                      Peer
           600%
                                                357.92%       371.29%     377.37%      378.15%
           400%        309.01%     323.50%

           200%
             0%
                    Dec-03      Dec-04       Dec-05        Dec-06       Dec-07      Sept-08
                                              Period End Date


              Source: UBPRs for SPB.

In addition, SPB’s ADC and CRE loans, as a percentage of total risk-based capital, were
historically higher than the bank’s peer group average. The ROE for SPB’s 2004 examination
assigned a 2 rating to asset quality, yet highlighted the bank’s rapid growth and concentration in
residential ADC lending and the additional risk that this type of lending entailed. The ROE
recommended that management closely monitor the residential real estate market. The 2005
ROE also assigned a 2 rating to asset quality, noting a continued significant growth in CRE
lending but no loan classifications. The 2006 ROE stated that there were no criticisms in the
way management deals with the bank’s concentrations in CRE loans but that concentrations in
CRE loans and the increased risks these loans present warranted attention. Examiners
downgraded SPB’s asset quality in the 2007 examination after noting significant loan
classifications.

Examiners told us that they initially planned to downgrade SPB’s asset quality rating during the
2006 examination due to the high concentrations in CRE/ADC loans and that they had advised
SPB’s senior management that a preliminary 3 asset quality rating was being assigned.
Examiners stated that SPB management strongly disagreed that a downgrade was appropriate
because the bank had no loan classifications and management was adequately monitoring SPB’s
loan concentrations. According to DSC officials, examiners ultimately determined that the
UFIRS component rating definitions did not support a downgrade in SPB’s asset quality rating
based solely on the high CRE/ADC loan concentrations because (1) management was proactive
in monitoring the concentrations and (2) the bank had no adversely classified assets. After the
2006 examination, DSC expanded its off-site monitoring of SPB and planned a joint examination
of SPB with DFI for September 2007.

The 2007 joint examination downgraded SPB’s asset quality to 4; however, after the exit
conference with SPB management on October 29, 2007, the FDIC and DFI did not present the
ROE to SPB’s BOD until January 2008. The ROE indicated that asset quality as of July 31,


                                                      15
     2007 had deteriorated and was unsatisfactory due to the significant level and severity of
     classifications, the increasing high level of risk in the loan portfolio, and credit administration
     concerns. These credit administration concerns related to (1) the bank’s inability to adequately
     rate the risk of its portfolio in a timely manner, (2) inadequate monitoring of real estate and
     unsecured loans, and (3) failure to obtain current financial statements from borrowers. After the
     BOD received examination results on January 23, 2008, SPB stipulated to a joint FDIC/DFI
     C&D on April 22, 2008.

     Concentrations of Credit. At the 2004 through 2006 examinations, examiners indicated that
     management practices related to asset concentrations were satisfactory but expressed concern
     regarding the rapid growth in CRE/ADC loan concentrations. In particular, the 2006 ROE
     referred to FIL-4-2006, Proposed Interagency Guidance on Commercial Real Estate, and
     observed that SPB’s concentrations far exceeded those levels requiring heightened risk
     management practices as prescribed by the FIL. Although the concentration in CRE loans was
     high and warranted attention, examiners indicated that management was proactive in monitoring
     the concentration and the real estate market. Yet 1 year later at the 2007 examination, examiners
     criticized concentration-related procedures, stating, “loans are not adequately being managed, the
     risk identification process needs improvement, and loans are not being placed on nonaccrual in
     accordance with policy.” The 2008 examination determined that management and the BOD had
     failed to institute adequate risk management practices and policies relative to the size, nature,
     and scope of concentrations in CRE/ADC loans. Specifically, management and the BOD had
     allowed concentrations in these areas to persist at significant levels without implementing
     appropriate information systems and compensating controls. As a result, SPB’s vulnerabilities
     had been exposed with the deterioration in the real estate market.

     The 2006 examination report cautioned SPB’s management regarding the bank’s rapid asset
     growth and high concentrations that ultimately led to SPB’s failure; however, the asset quality
     rating was not downgraded because management was viewed as being pro-active in monitoring
     its high concentrations, and the bank had no adversely classified assets at that time. However,
     once the bank’s financial condition had deteriorated in 2007, the examiners significantly
     downgraded SPB’s asset quality rating. Examiners needed to be more aggressive in their
     recommendations and ratings regarding asset quality based on the risks they identified prior to
     the 2007 examination rather than delay these actions until an economic decline became evident.
     More timely supervisory action related to SPB’s high level of concentrations, which far exceeded
     those of peer institutions, was needed prior to the economic downturn to limit the high-risk
     lending practices that the bank was employing.


LIQUIDITY

     Examiners for the 2004 and 2005 risk management examinations assigned a 2 rating to liquidity.
     SPB’s liquidity rating was downgraded to a 3 with the 2006 examination due to the bank’s heavy
     reliance on volatile non-core funding sources to fund asset growth. Liquidity was further
     downgraded to a 4 at the 2007 FDIC examination because bank management did not adequately
     monitor and control liquidity. By the 2008 examination, liquidity had been downgraded to a 5,
     indicating that SPB’s liquidity levels or funds management practices were so critically deficient



                                                       16
that the bank’s continued viability was threatened. Institutions rated 5 require immediate
external financial assistance to meet maturing obligations or other liquidity needs.

A key metric of the risks related to a bank’s liquidity management is the net non-core funding
dependence ratio. This ratio indicates the degree to which the bank relies on non-core volatile
liabilities, such as CDs of more than $100,000; brokered deposits; and FHLB advances to fund
long-term earning assets. Generally, the lower the ratio, the less risk exposure there is for the
bank, whereas higher ratios reflect a reliance on funding sources that may not be available in
times of financial stress or adverse changes in market conditions. As noted in Figure 5 below,
SPB’s reliance on non-core/volatile liabilities exceeded its peer group average during the bank’s
last three examinations, with the variance soaring as of the 2008 examination. This pattern was
attributable to the bank’s heavy reliance on the use of volatile Internet CDs, brokered deposits,
and money desk deposits to provide liquidity.


                  Figure 5: Net Non-Core Funding Dependence Ratio -
                                  Compared to Peer

                                                                      65.86%
            70%
            60%
            50%
                                              37.71%
            40%                                                          29.33%
                                                          28.48%
   Ratio




                                                                                    SPB
            30%                      21.60%         22.35%      24.07%
                      15.36%                                                        Peer
            20%           14.83%
            10%
             0%
           -10%   -2.13%
                    Aug-04       June-05       July-06      Sept-07   Aug-08
                                         Examination Date
              Source: OIG review of ROEs for SPB.


The 2004 ROE indicated that Internet CD growth during 2004 was used to fund growth in the
bank’s construction loan portfolio. At the time, liquid assets, which were primarily federal funds
sold, exceeded deposits over $100,000, and the net non-core funding dependence ratio at the
time of the 2004 examination was negative. The 2005 ROE noted that the reported net non-core
dependence ratio of 15 percent (rounded) did not reflect the risk of volatile Internet-based
deposits under $100,000. The 2006 ROE emphasized the bank’s use of a money desk and
brokered deposits to fund rapid growth in real estate construction loans and discussed the risks of
these higher-cost deposit products. In 2007, although the reported net non-core dependence ratio
was lower than the 2006 ratio, reflecting a decrease in balances of $100,000 or more, the ROE
noted that if money desk and brokered deposits under $100,000 were considered, volatile
liability dependence would be “an extremely high 48 percent.” During the August 2008



                                                       17
      examination, examiners noted that the bank continued to use wholesale funding extensively, with
      volatile non-core deposits comprising $367 million, or 71 percent of total deposits.


Examiner Concerns and Recommendations Regarding Liquidity

      Both the 2004 and 2005 ROEs emphasized that management relied heavily on time deposits
      obtained through the Internet, representing 51 percent of total deposits by the 2005 examination.
      Liquidity levels at the time were considered adequate; therefore, the 2004 and 2005 ROEs rated
      SPB’s liquidity as satisfactory.

      The 2006 examination was the first examination to reflect that the bank’s funds management
      practices had become inadequate. The 2006 ROE noted that the heavy use of volatile deposits to
      fund rapid growth in real estate construction loans was “a business model that entails higher
      risk” and that this funding strategy was dependent on continued favorable economic conditions.
      The results of the 2007 examination showed that management and the BOD did not effectively
      respond to examiner criticism of liquidity in the 2006 ROE.

      The 2007 ROE noted that it was unclear how management was monitoring and controlling
      liquidity and that since the departure of the Chief Financial Officer in 2007, money desk deposit
      and construction loan activity no longer appeared to be correlated. In addition, the ROE raised
      concerns that six large depositors accounted for 15 percent of deposits, yet management had not
      performed an analysis to determine the stability of these deposits. The ROE noted that negative
      earnings might erode large depositor confidence, leaving the bank potentially exposed to deposit
      fluctuations. The ROE recommended that management reduce reliance on high-cost money desk
      and brokered deposits and evaluate the stability of other high-rate savings deposits. Finally, the
      ROE criticized bank management for not adequately monitoring liquidity ratios and reflecting
      those ratios in reports to the BOD, resulting in the bank operating outside of approved liquidity
      policy guidelines. FDIC examiners recommended that management and the BOD develop a
      contingency liquidity plan (CLP) and incorporate it into the bank’s liquidity policy to define
      reasonable policy limits and the steps to be taken when those limits were exceeded.

      The results of the 2008 examination indicated that SPB remained ineffective at addressing
      liquidity concerns. Examiners noted that the bank continued to operate outside of liquidity
      policy guidelines. In addition, the bank had added some general statements about liquidity
      contingency planning to its liquidity policy, but examiners concluded that more specific
      guidance was still needed.

      A summary of examiner comments and recommendations related to liquidity follows in Table 6.




                                                       18
Table 6: Examiner Comments and Recommendations Regarding SPB’s Liquidity
                         Examiner Comments                                          Examination Dates
                                                                            Aug    June  July    Sept   Aug
                                                                            2004   2005  2006    2007   2008
Overall conclusion on liquidity
  • Satisfactory                                                             9      9
  • Less than satisfactory                                                                 9      9      9
Assessment of liquidity management practices
  • Funds management practices are adequate                                  9      9
  • Funds management practices are inadequate                                              9      9      9
  • Contingency liquidity plan guidance is inadequate                                             9      9
  • Increased oversight needed for volatile funding sources                                       9
  • No analysis of large deposit stability                                                        9
  • Operating outside the parameters established in liquidity policy                              9      9
    and/or no guidelines established
Funding source risks
  • Reliance on potentially volatile non-core funding sources, such as       9      9      9      9      9
    Internet CDs, brokered deposits, and money desk deposits
  • Funding strategy is high cost, high risk                                               9      9      9
  • Several customers control a large volume of deposits                     9                    9      9
  • Declining economic and/or financial condition could impair access                      9      9      9
    to liquidity
Examiner recommendations
  • Evaluate reasonable policy guidelines and limits for liquidity                                9      9
  • Develop plans to reduce reliance on high-cost money desk and                                  9      9
    brokered deposits
  • Closely monitor and maintain liquidity levels                                                 9      9
  • Develop a detailed contingency liquidity plan and incorporate it into                         9      9
    the liquidity policy
  • Analyze the stability of the bank’s largest depositors                                        9
Source: FDIC and DFI ROEs for SPB.



Lack of an Adequate CLP. SPB did not implement sound liquidity management controls that
included a comprehensive CLP. As a result, when SPB’s liquidity position became severely
critical in 2008, bank management was ineffective in obtaining sufficient liquidity for the
institution.

According to the Examination Manual, CLPs should be in force and include strategies for
handling liquidity crises and procedures for addressing cash-flow shortfalls in emergency
situations. The manual also states that financial institutions should have an adequate CLP in
place to manage and monitor liquidity risk, ensure that an appropriate amount of liquid assets is
maintained, measure and project funding requirements during various scenarios, and manage
access to funding sources.

By the 2007 examination, SPB demonstrated an increasing reliance on volatile funding sources,
a decline in earnings performance and projections, and a significant decline in asset quality—
three early warning indicators that should have prompted SPB of the need for a comprehensive
CLP. In response to a recommendation in the 2007 ROE, bank management updated the bank’s
liquidity policy to include a general discussion of contingency planning. However, examiners


                                                           19
concluded that the guidance was not specific enough to be effective, considering the bank’s
drastically diminishing liquidity.

Shortly before SPB’s failure, DSC issued additional guidance related to liquidity risk and CLPs.
The FDIC’s Liquidity Risk Management guidance, dated August 26, 2008, urged financial
institutions to establish a formal CLP that establishes quantitative liquidity risk guidelines. The
guidance also states that CLPs should identify the institution’s liquidity risk profile and the types
of stress events that may be faced including, but not limited to, a deterioration in asset quality,
becoming less than well capitalized, the need to fund unplanned asset growth, loss of access to
market funding sources, and the impact of negative press coverage. We consider the lack of an
adequate CLP be a significant concern, which we will address in our summary reports covering
multiple bank failures.

Brokered Deposit Restrictions. The 2006 ROE identified examiner concern with SPB’s
reliance on money desk and brokered deposits as a primary source of liquidity to fund the rapid
growth of the bank’s real estate construction portfolio. The ROE noted that this strategy caused
the bank’s cost of funds to exceed its peer group average and that it could create liquidity risks
for the bank under adverse economic conditions. The 2007 ROE advised management that the
bank’s declining financial condition might result in limitations on the availability of brokered
and other high-rate deposits.

The FDIC’s Rules and Regulations, section 337.6, Brokered Deposits, restricts access to
brokered deposits for banks that are less than well capitalized, stating that an adequately
capitalized institution may not accept, renew, or roll over any brokered deposit unless the bank
had applied for and had been granted a waiver of this restriction by the FDIC. The PCA-related
provisions in Part 3257 of the FDIC’s Rules and Regulations indicate that a bank may be
categorized as less than well capitalized if it is subject to a C&D issued by the FDIC. As a result
of the jointly issued C&D, SPB was categorized as adequately capitalized, and its access to new
or rollover brokered deposits was restricted on April 22, 2008, the effective date of the C&D.

Bank management initially submitted a brokered deposit waiver application on May 2, 2008, but
it was returned by the FDIC as inadequate on July 9, 2008. On July 15, 2008, the bank
submitted a new application, and on July 31, 2008, the FDIC approved a waiver for $25 million
in brokered deposits through August 31, 2008. The bank subsequently obtained $18.4 million in
brokered deposits with maturities of 6 and 9 months. On August 4, 2008, the bank attempted to
expand the scope of the waiver, but the FDIC rejected the request because the bank had not been
effective in resolving its capital and liquidity problems or in reducing its dependence on brokered
deposits. From the end of June 2008 until the bank failed on November 7, 2008, the bank
experienced a steady decline of $89 million in total deposits, primarily as a result of maturing
CDs that the bank only partially replaced by using brokered deposits. On August 28, 2008, the
bank requested an extension of its brokered deposit waiver beyond August 31, but the FDIC did

7
  Subpart B, Prompt Corrective Action, section 325.103(b) - Capital categories - notes that a bank shall be deemed
to be well capitalized if it maintains certain minimum capital ratios and is not subject to any written agreement,
order, capital directive, or PCA Directive issued by the FDIC pursuant to section 8 of the FDI Act, the International
Lending Supervision Act of 1983, or section 38 of the FDI Act, or any regulation thereunder, to meet and maintain a
specific capital level for any capital measure.


                                                           20
      not approve this request. Once the bank’s brokered deposit waiver expired, additional sources of
      funding available to the bank were inadequate to address the bank’s liquidity needs. We
      consider the overreliance on brokered deposits to be a significant concern, which we will address
      in our summary reports covering multiple bank failures.


Regulatory Supervision Related to Liquidity

      Although the 2006 ROE rated SPB’s liquidity less than satisfactory and identified the risks
      inherent in the bank’s reliance on a money desk to generate deposits, the ROE did not contain
      specific recommendations for improvement of the bank’s liquidity position. At a minimum, the
      ROE could have recommended that the bank evaluate the adequacy of liquidity-related policy
      guidelines, with a goal of reducing reliance on volatile deposits. In addition, FDIC guidance
      notes that informal enforcement actions, such as a Bank Board Resolution, could be targeted to
      address concerns noted in an area where a liquidity rating of 3 has been assigned. However, we
      found no evidence that the FDIC had proposed an informal enforcement action as a result of the
      2006 examination to encourage management to improve liquidity management practices.

      By the 2007 examination, SPB exhibited early warning signs of the need for liquidity
      contingency planning, and examiners criticized the bank for not having developed an appropriate
      CLP as part of its liquidity policy. Although the bank had somewhat reduced its reliance on
      wholesale funding, the ROE noted that dependence on potentially volatile liabilities remained
      extremely high. In addition, the 2007 ROE indicated that the bank had not established policy
      guidelines for the loans-to-deposits ratio, which examiners considered to be very high; the 2006
      ROE did not identify this policy weakness. The assigned 2007 liquidity rating of 4 merited
      formal enforcement action by DSC; however, as noted previously, the issuance of the C&D was
      not timely.

      As part of the April 2008 C&D, the FDIC required that the bank take these actions to improve its
      liquidity management:

          •   Develop and submit a written 3-year strategic plan that addresses ways to ensure that the
              bank maintains adequate liquidity, specifically addresses the composition of the deposit
              portfolio, and includes provisions for increasing the bank’s core deposits.
          •   Develop or revise, adopt, and implement a written liquidity and funds management
              policy.
          •   Restrict increases in money desk and brokered deposits.
          •   Submit a written plan for eliminating its reliance on money desk and brokered deposits.

      Subsequent to the C&D, management stopped seeking deposits through an Internet listing
      service, and liquidity began to shrink as money desk deposits matured. During the 2008
      examination, examiners evaluated the bank’s progress in addressing recommendations from the
      2007 examination and the provisions of the 2008 C&D. Examiners noted that the bank had
      experienced a 33-percent decrease in brokered and money desk deposits subsequent to the
      issuance of the C&D; however, as of the 2008 examination date, management continued to




                                                        21
    depend on wholesale funding, with 59 percent of the deposit base remaining in volatile money
    desk and brokered deposits.


IMPLEMENTATION OF PCA

    The purpose of PCA is to resolve problems of insured depository institutions at the least possible
    long-term cost to the DIF. PCA establishes a system of restrictions and supervisory actions that
    are triggered by an institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations
    implements PCA requirements by establishing a framework for taking prompt corrective action
    against insured nonmember banks that are less than adequately capitalized.

    The FDIC evaluated SPB’s capital position and assigned a capital component rating of 2 in the
    2006 examination, indicating a satisfactory capital level relative to the bank’s risk profile.
    Subsequently, the 2007 examination downgraded the bank’s capital rating to a 4, indicating a
    deficient level of capital that could threaten the viability of the institution and require the bank to
    obtain financial support from shareholders or other external sources. As a result, the April 2008
    C&D contained several capital-related provisions even though the bank’s reported PCA capital
    ratios had been in the well capitalized range. These provisions included:

       •   maintaining Tier 1 Capital at, or in excess of, 10 percent of the bank’s total assets;
       •   implementing a capital maintenance and augmentation plan;
       •   submitting to the FDIC and DFI a written 3-year strategic plan addressing ways to ensure
           the bank maintains adequate capital; and
       •   restricting the payment of dividends without prior written consent of the FDIC and DFI.

    As noted previously, the issuance of the C&D was not timely, which may have limited its
    effectiveness. The bank was subsequently categorized as adequately capitalized on April 22,
    2008, the effective date of the C&D. On May 6, 2008, the bank filed a Call Report containing
    capital ratios that further supported the adequately capitalized category.

    During the 2008 examination, which started in August and was completed in October 2008,
    examiners reviewed the bank’s compliance with the provisions of the C&D. Examiners
    determined that although the bank had prepared a revised capital plan, certain planned actions
    had not materialized, and others were questionable. The bank did not pay any dividends during
    2008 and obtained additional capital from the holding company and a stock sale; however, these
    attempts to increase Tier 1 Capital to the required percentage were not successful. In addition,
    the bank did not submit a strategic plan as required by the C&D.

    Examiners concluded that the bank’s capital was critically deficient, downgraded the capital
    rating to a 5, and categorized the bank as significantly undercapitalized. The FDIC formally
    notified the bank of this categorization in a PCA Notification letter, dated October 16, 2008. The
    letter stated that the bank was subject to the mandatory requirements of section 38 of the FDI Act
    including, but not limited to, submission of a written capital restoration plan and restrictions on
    asset growth and payments of dividends. Some of these requirements reiterated provisions
    included in the C&D. On October 17, 2008, DFI informed SPB that DFI may take “extreme


                                                        22
    action against the bank” unless the bank either merges or sells its business to another depository
    institution or increases tangible shareholders equity to the greater of $36.8 million, or 10 percent
    of total bank assets. The bank was unsuccessful and was subsequently closed November 7,
    2008.

    PCA’s focus is on capital, and capital can be a lagging indicator of an institution’s financial
    health. In addition, the use of PCA can depend on the accuracy of capital ratios in a financial
    institution’s Call Reports. SPB’s reported capital ratios remained in the well capitalized to
    adequately capitalized range long after its operations had begun to deteriorate. During the 2007
    and 2008 examinations, examiners considered the ALLL to be underfunded by $13,409,000 and
    $23,325,000, respectively, which overstated capital and earnings and underreported the
    deterioration of the loan portfolio. In addition, the 2008 examination determined that bank
    management had incorrectly reported $2.7 million in stock warrants of an unrelated bank holding
    company as capital in its June 30, 2008 Call Report, overstating SPB’s capital position and
    capital ratios as of that date.


CORPORATION COMMENTS

    On May 12, 2009, the Director, DSC, provided a written response to the draft report. DSC’s
    response is provided in its entirety as Appendix 3 of this report. In its response, DSC noted that
    SPB’s primary growth phase occurred between 2003 and 2005, when the Southern California
    real estate market was expanding rapidly, and the subsequent material decline in real estate
    values in SPB’s market area contributed to the severe deterioration in SPB’s asset quality,
    excessive operating losses, and severe erosion of capital. DSC agreed with the OIG’s assessment
    that SPB failed due to management’s pursuit of a high-risk business strategy focused on rapid
    asset growth concentrated in CRE loans, including ADC loans, which were financed primarily
    with wholesale funding. Further, DSC acknowledged that implementation of the formal
    enforcement action in 2008 was delayed, but noted that SPB’s BOD and management were
    provided detailed information regarding supervisory concerns following the 2007 examination.
    DSC has since adopted strategies aimed at improving the timeliness of enforcement actions in
    problem bank situations. DSC stated that it continues to proactively adjust its supervisory
    programs in response to changing and emerging risks to the economy, insured financial
    institutions, and the DIF.




                                                       23
                                                                                    APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which
      provides, in general, that if a deposit insurance fund incurs a material loss with respect to
      an insured depository institution, the Inspector General of the appropriate federal banking
      agency shall prepare a report to that agency reviewing the agency’s supervision of the
      institution. The FDI Act requires that the report be completed within 6 months after it
      becomes apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted the audit from November 2008 to April 2009 in accordance with generally
      accepted government auditing standards. However, due to the limited scope and
      objectives established for material loss reviews, which are generally applied to just one
      financial institution, it may not have been feasible to address certain aspects of the
      standards, as discussed on the next page.


Scope and Methodology

      The scope of this audit included an analysis of SPB’s operations from January 1, 2004
      until its failure on November 7, 2008. Our review also entailed an evaluation of the
      regulatory supervision of the institution over the same period.

      To achieve the objectives, we performed the following procedures and techniques:

             •   Analyzed examination reports and available supporting work papers prepared by
                 FDIC and DFI examiners from 2004 to 2008.

             •   Reviewed the following:

                   •   Bank data and correspondence maintained at DSC’s SFRO and Los Angeles
                       West Field Office.

                   •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
                       and DSC relating to the bank’s closure.

                   •   SPB’s financial audit work papers from the offices of McGladrey & Pullen,
                       LLP, Pasadena, California.




                                                      24
                                                                                   APPENDIX 1


                 •   Bank records maintained by DRR in Dallas for information that would
                     provide insight into the bank’s failure.

                 •   Pertinent DSC policies and procedures.

           •   Interviewed the following FDIC officials:

                 •   DSC management in the FDIC’s SFRO.

                 •   DSC examiners from the Los Angeles West Field Office who participated in
                     SPB examinations or reviews of examinations.

                 •   DRR and contractor personnel at the SPB Receivership Office in Los
                     Angeles, California.

                 •   DRR and Legal Division personnel at the Dallas Regional Office.

           •   Discussed with officials from the California DFI, Los Angeles, California, their
               coordination with the FDIC on joint examinations.

           •   Researched various federal banking laws and regulations.

      We performed the audit fieldwork at the FDIC’s Headquarters in Washington, D.C., the
      Dallas Regional Office and SFRO, and the DSC Los Angeles West Field Office.

      Our ability to evaluate the adequacy of DSC’s supervisory efforts was limited by the lack
      of FDIC examination work papers for the 2006 FDIC examination. We were informed
      that the 2006 examination work papers had been destroyed prior to the commencement of
      our review, in accordance with FDIC guidelines, and thus were no longer available.
      Regional Directors Memorandum 01-039, Guidelines for Examination Workpapers and
      Discretionary Use of Examination Documentation Modules, dated September 25, 2001,
      and the Examination Manual note that, with some exceptions, the retention of work
      papers beyond one examination for well-rated banks is generally discouraged. We have
      issued an audit memorandum to the Director, DSC, communicating matters related to
      workpaper retention.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We performed a limited review of SPB’s
      management controls pertaining to its operations as discussed earlier in this report.




                                                     25
                                                                           APPENDIX 1

For purposes of the audit, we did not rely on computer-processed data to support our
significant findings and conclusions. Our review centered on interviews, ROEs,
correspondence, and other evidence to support our audit.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                             26
                                                                                               APPENDIX 2
                                     GLOSSARY OF TERMS

Term                   Definition
Adversely Classified   Assets subject to criticism and/or comment in an examination report. Adversely classified
Assets                 assets are allocated on the basis of risk (lowest to highest) to three categories:
                       •    Substandard,
                       •    Doubtful, and
                       •    Loss.

Allowance for Loan     Federally insured depository institutions must maintain an ALLL level that is adequate to
and Lease Losses       absorb the estimated credit losses associated with the loan and lease portfolio (including all
(ALLL)                 binding commitments to lend). To the extent not provided for in a separate liability
                       account, the ALLL should also be sufficient to absorb estimated credit losses associated
                       with off-balance sheet credit instruments such as standby letters of credit.

Cease and Desist       A formal enforcement action issued by a financial institution regulator to a bank or
Order (C&D)            affiliated party to stop an unsafe or unsound practice or a violation of laws and regulations.
                       A C&D may be terminated when the bank’s condition has significantly improved and the
                       action is no longer needed or the bank has materially complied with its terms.

Concentration          A concentration is a significantly large volume of economically related assets that an
                       institution has advanced or committed to one person, entity, or affiliated group. These
                       assets may, in the aggregate, present a substantial risk to the safety and soundness of the
                       institution. A concentrations schedule is one of the pages that may be included in the ROE.
                       As a general rule, concentrations are listed by category according to their aggregate total
                       and are reflected as a percentage of Tier 1 Capital. Concentrations representing 100 percent
                       or more of Tier 1 Capital should include concentrations by: industry, product line, type of
                       collateral, and short-term obligations of one financial institution or affiliate group.

Money Desk             Bank activities that involve the solicitation of high-interest-rate deposits by in-house
Deposits               salaried employees. Money desk deposits are considered to be a form of wholesale funding.

Prompt Corrective      The purpose of PCA is to resolve problems of insured depository institutions at the least
Action (PCA)           possible long-term cost to the DIF. Part 325, subpart B, of the FDIC Rules and Regulations,
                       12 Code of Federal Regulations section 325.101, et. seq., implements section 38, Prompt
                       Corrective Action, of the FDI Act, 12 United States Code section 1831o, by establishing a
                       framework for taking prompt supervisory actions against insured nonmember banks that are
                       less than adequately capitalized. The following terms are used to describe capital adequacy:
                       (1) Well Capitalized, (2) Adequately Capitalized, (3) Undercapitalized, (4) Significantly
                       Undercapitalized, and (5) Critically Undercapitalized.

                       A PCA Directive is a formal enforcement action seeking corrective action or compliance
                       with the PCA statute with respect to an institution that falls within any of the three
                       catagories of undercapitalized institutions.

Stock Warrants         A stock warrant is a financial instrument issued by a company that gives the holder the
                       right, but not the obligation, to buy an underlying security of the company at a certain price,
                       quantity, and future time.

Uniform Bank           The UBPR is an individual analysis of financial institution financial data and ratios that
Performance Report     includes extensive comparisons to peer group performance. The report is produced by the
(UBPR)                 Federal Financial Institutions Examination Council for the use of banking supervisors,
                       bankers, and the general public and is produced quarterly from Call Report data submitted
                       by banks.




                                                        27
                       APPENDIX 3

CORPORATION COMMENTS




         28
                                                                    APPENDIX 4
                      ACRONYMS IN THE REPORT


Acronym                                   Definition
ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
BOD       Board of Directors
C&D       Cease & Desist Order
CAMELS    Capital adequacy, Asset quality, Management practices, Earnings
          performance, Liquidity position, and Sensitivity to market risk
CD        Certificate of Deposit
CLP       Contingency Liquidity Plan
CRE       Commercial Real Estate
DFI       Department of Financial Institutions
DIF       Deposit Insurance Fund
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FHLB      Federal Home Loan Bank
FIL       Financial Institution Letter
GAAP      Generally Accepted Accounting Principles
OIG       Office of Inspector General
PCA       Prompt Corrective Action
ROE       Report of Examination
SFRO      San Francisco Regional Office
SPB       Security Pacific Bank
SPCC      Security Pacific Credit Corporation
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institutions Rating System




                                        29
